                                                     National Railroad Passenger Corporation
                                                     Office of Inspector General
                                                     10 G Street N.E.
	                                                   Washington, DC 20002




              THEFT OF PCARD INFORMATION FROM AMTRAK EMPLOYEE
                                JANUARY 29, 2014
                               CASE OIG-I-2014-502

Our investigation revealed that an Amtrak employee used her Amtrak Procurement Card (P-
Card) to reserve a conference room at the Union Station Business Center. An employee of
another company located inside the Union Station Business Center used her P-Card number to
make purchases at Bloomingdales, Neiman Marcus, Macy’s; and to purchase basketball tickets
and on-line adult entertainment. The individual was arrested in July 2013 and subsequently
pled guilty on October 16, 2013, to one count of identity theft and one count of attempted
forgery. On November 8, 2013, he was sentenced on both counts to 120 days incarceration,
sentence suspended. He was placed on 3 years supervised probation and was ordered to
make restitution of $4,480 and to pay $100 to the Victims of Violent Crime Compensation Fund.
